No. 20-1263
IN THE

Supreme Court of the United States
GIANINNA GALLARDO, AN INCAPACITATED PERSON, BY
AND THROUGH HER PARENTS AND CO-GUARDIANS PILAR
VASSALLO AND WALTER GALLARDO,
Petitioner,
v.
SIMONE MARSTILLER, IN HER OFFICIAL CAPACITY AS
SECRETARY OF THE FLORIDA AGENCY FOR HEALTH
CARE ADMINISTRATION,
Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit
JOINT APPENDIX
ASHLEY MOODY
Attorney General of Florida
HENRY C. WHITAKER
Solicitor General
Counsel of Record
Office of the
Attorney General
PL-01, The Capitol
Tallahassee, FL 32399
(850) 414-3300
henry.whitaker@myflorida
legal.com
Attorneys for Petitioner
Attorneys for Respondent
(Additional Counsel Listed on Inside Cover)

BRYAN S. GOWDY
Counsel of Record
MEREDITH A. ROSS
CREED & GOWDY, P.A.
865 May Street
JACKSONVILLE, FL 32204
(904) 350-0075
bgowdy@appellatefirm.com

September 2021
PETITION FOR WRIT OF CERTIORARI FILED MARCH 9, 2021
CERTIORARI GRANTED JULY 2, 2021

SCOTT L. NELSON
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
FLOYD FAGLIE
STAUNTON & FAGLIE, PL
189 E. Walnut Street
Monticello, FL 32344
(850) 997-6300

DANIEL W. BELL
Chief Deputy Solicitor
General
CHRISTOPHER J. BAUM
Senior Deputy Solicitor
General
Office of the
Attorney General
PL-01, The Capitol
Tallahassee, FL 32399
(850) 414-3300
TRACY COOPER GEORGE
Chief Appellate Counsel
FLORIDA AGENCY FOR
HEALTH CARE
ADMINISTRATION
2727 Mahan Drive
Tallahassee, FL 32308

Attorneys for Petitioner

Attorneys for Respondent

i

TABLE OF CONTENTS
Relevant Docket Entries, United States Court of
Appeals for the Eleventh Circuit, No. 17-13693 ........ 1
Relevant Docket Entries, United States District
Court for the Northern District of Florida,
No. 4:16-cv-00116-MW-CAS ....................................... 6
Complaint .................................................................. 16
Answer....................................................................... 37
Memorandum Supporting Plaintiff’s Motion for
Summary Judgment (excerpt) .................................. 40
Response to Plaintiff’s Motion for Summary
Judgment (excerpt) ................................................... 44

The following documents have been omitted from the
Joint Appendix because they were reproduced in the
Appendix to the Petition for a Writ of Certiorari. The
page numbers listed below are the pages where the
items are found in the Appendix to the Petition.
Opinion of the United States Court of Appeals
for the Eleventh Circuit,
June 26, 2020 ................................... Pet. App. 1
Order Granting in Part and Denying in Part
Motion to Alter or Amend Judgment,
United States District Court for the
Northern District of Florida,
July 18, 2017 .................................. Pet. App. 61
Second Amended Judgment, United States
District Court for the Northern District
of Florida, July 18, 2017 ............... Pet. App. 86

ii

Order on Summary Judgment Motions,
United States District Court for the
Northern District of Florida,
April 18, 2017 ................................. Pet. App. 88
Order Canceling Hearing and Placing Case
in Abeyance, State of Florida Division
of Administrative Hearings,
June 14, 2016 ............................... Pet. App. 116
Order Denying Rehearing, United States
Court of Appeals for the Eleventh
Circuit, October 20, 2020 ............. Pet. App. 119

1

General Docket
United States Court of Appeals for the
Eleventh Circuit, No. 17-13693
Court of Appeals Docket #: 17-13693
Docketed: 08/17/2017
Nature of Suit: 3440 Other Civil Rights
Termed: 06/26/2020
Gianinna Gallardo v. Mary Mayhew
Appeal From: Northern District of Florida
Fee Status: Fee Paid
Case type information:
1) Private Civil
2) Federal Question
3) –
Originating Court Information:
District: 1129-4 : 4:16-cv-00116-MW-CAS
Court Reporter: Megan Hague
Civil Proceeding: Mark E. Walker, Chief U.S.
District Judge
Secondary Judge: Charles A. Stampelos, U.S.
Magistrate Judge
Date Filed: 02/22/2016
Date NOA Filed:
08/17/2017
Prior Cases:
None
Current Cases:
None
***

2

08/17/2017

CIVIL APPEAL DOCKETED. Notice
of appeal filed by Appellant Justin M.
Senior on 08/17/2017. Fee Status: Fee
Paid. Awaiting Appellant's Certificate
of Interested Persons due on or before
08/31/2017 as to Appellant Justin M.
Senior. Awaiting Appellee's Certificate of Interested Persons due on or
before 09/14/2017 as to Appellee Gianinna Gallardo [Entered: 08/17/2017
04:43 PM]
***

11/29/2017

Appellant’s brief filed by Justin M.
Senior. (ECF: Andre Bardos) [Entered: 11/29/2017 04:47 PM]
***

12/06/2017

Appendix filed [1 VOLUMES] by Appellant Justin M. Senior. (ECF: Andre
Bardos) [Entered: 12/06/2017 04:30
PM]
***

02/12/2018

Supplemental Authority filed by Appellant Justin M. Senior. (ECF: Andre
Bardos) [Entered: 02/11/2018 07:28
PM]

02/12/2018

Appellee’s Brief filed by Appellee Gianinna Gallardo. (ECF: Bryan Gowdy)
[Entered: 02/12/2018 06:16 PM]
***

03/28/2018

Reply Brief filed by Appellant Justin
M. Senior. (ECF: Andre Bardos) [Entered: 03/28/2018 08:19 AM]

3

***
05/14/2018

Supplemental Authority filed by Appellant Justin M. Senior. (ECF: Andre
Bardos) [Entered: 05/14/2018 12:33
PM]
***

07/11/2018

Supplemental Authority filed by Appellee Gianinna Gallardo. (ECF:
Bryan Gowdy) [Entered: 07/11/2018
10:00 AM]
***

08/07/2018

Response to Supplemental Authority
(28J) filed by Appellant Justin M.
Senior. (ECF: Andre Bardos) [Entered: 08/07/2018 10:40 AM]
***

11/16/2018

MOTION to dismiss appeal as moot
filed by Gianinna Gallardo. Opposition to Motion is Unknown. [86221221] [17-13693] (ECF: Bryan Gowdy)
[Entered: 11/16/2018 11:59 AM]
***

12/13/2018

Oral argument held. Oral Argument
participants were Andre V. Bardos for
Appellant Justin M. Senior and
Bryan Scott Gowdy for Appellee Gianinna Gallardo. [Entered: 12/13/2018
03:36 PM]
***

11/26/2019

Supplemental Authority filed by Appellee Gianinna Gallardo. [17-13693]

4

(ECF: Bryan Gowdy)
11/26/2019 01:42 PM]

[Entered:

12/05/2019

Response to Supplemental Authority
(28J) filed by Appellant Mary Mayhew. [17-13693] (ECF: Andre Bardos)
[Entered: 12/05/2019 02:26 PM]

01/14/2020

Supplemental Authority filed by Appellee Gianinna Gallardo. [17-13693]
(ECF:
Bryan
Gowdy)
[E
tered:01/14/2020 09:31 AM]

06/26/2020

Opinion issued by court as to Appellant Mary Mayhew. Decision: Reversed and Remanded. Opinion type:
Published. Opinion method: Signed.
Motion to dismiss appeal as moot filed
by Appellee Gianinna Gallardo is DENIED. [8622122-2]. The opinion is
also available through the Court's
Opinions page at this link
http://www.ca11.uscourts.gov/opinions.
(Opinion
corrected
on
6/26/2020.)--[Edited 06/26/2020 by
JRP] [Entered: 06/26/2020 01:38 PM]

06/26/2020

Judgment entered as to Appellant
Mary Mayhew. [Entered: 06/26/2020
01:41 PM]

07/17/2020

Petition for rehearing en banc filed by
Appellee Gianinna Gallardo. [1713693] (ECF: Bryan Gowdy)[Entered:
07/17/2020 10:47 PM]
***

10/20/2020

PUBLISHED ORDER: No judge in
regular active service on the Court

5

having requested that the Court be
polled on rehearing en banc, the Petition for Rehearing En Banc is DENIED. The Petition for Rehearing En
Banc is also treated as a Petition for
Rehearing before the panel and is DENIED... (See attached order for complete text). CRW, ELB, RLA; WILSON, dissenting. [9217003-1] [Entered: 10/20/2020 02:39PM]
10/28/2020

Mandate issued as to Appellant Mary
Mayhew. [Entered: 10/28/2020 10:54
AM]
***

6

U.S. District Court
Northern District of Florida (Tallahassee)
CIVIL DOCKET FOR CASE #:
4:16-cv-00116-MW-CAS
GALLARDO v. SENIOR
Assigned to: CHIEF JUDGE MARK E WALKER
Referred to: MAGISTRATE JUDGE CHARLES A
STAMPELOS
Case in other court: USCA, 17-13693-K
Cause: 42:1983 Civil Rights Act
Date Filed: 02/22/2016
Date Terminated: 04/18/2017
Jury Demand: None
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question
***
Date Filed

#

02/22/2026 1

Docket Text
COMPLAINT against ELIZABETH DUDEK (Filing fee $ 400
receipt
number
AFLNDC3503297.), filed by GIANINNA
GALLARDO. (Attachments: # 1
SUMMONS FOR ELIZABETH
DUDEK) (GOWDY, BRYAN) (Entered: 02/22/2016)
***

04/25/2016 5

ANSWER to 1 Complaint by ELIZABETH DUDEK. (BOLER, ALEXANDER) (Entered: 04/25/2016)
***

7

08/15/2016 10

NOTICE OF FILING EXHIBITS
IN SUPPORT OF MOTION FOR
SUMMARYJUDGMENT by GIANINNA GALLARDO (Attachments: # 1 Exhibit Fourth
Amended Complaint, # 2 Exhibit
Orders Approving Settlement, # 3
Exhibit Order Canceling Hearing
and Placing Case in Abeyance, # 4
Exhibit AHCA Analysis Relating
to Proposed Amendment, # 5 Exhibit
HB939
Bill
Analysis
6_10_2013) (GOWDY, BRYAN)
(Entered:08/15/2016)

08/15/2016 11

First MOTION for Summary
Judgment by GIANINNA GALLARDO. (Internal deadline for referral to judge if response to summary judgment not filed earlier:
9/6/2016). (GOWDY, BRYAN) (Entered: 08/15/2016)

08/15/2016 12

MEMORANDUM in Support re 11
First MOTION for Summary
Judgment filed by GIANINNA
GALLARDO. (GOWDY, BRYAN)
(Entered: 08/15/2016)

08/16/2016 13

First MOTION for Summary
Judgment
by
ELIZABETH
DUDEK. (Internal deadline for referral to judge if response to summary judgment not filed earlier:
9/6/2016). (BOLER, ALEXANDER) (Entered: 08/16/2016)

8

08/16/2016 14

MEMORANDUM in Support re 13
First MOTION for Summary
Judgment filed by ELIZABETH
DUDEK. (BOLER, ALEXANDER)
(Entered: 08/16/2016)

09/06/2016 15

RESPONSE in Opposition re 13
First MOTION for Summary
Judgment filed by GIANINNA
GALLARDO. (GOWDY, BRYAN)
(Entered: 09/06/2016)

09/06/2016 16

RESPONSE in Opposition re 11
First MOTION for Summary
Judgment filed by ELIZABETH
DUDEK. (BOLER, ALEXANDER)
(Entered: 09/06/2016)
***

09/13/2016 18

REPLY to Response to Motion re
13 First MOTION for Summary
Judgment filed by ELIZABETH
DUDEK. (BOLER, ALEXANDER)
(Entered: 09/13/2016)

09/20/2016 19

REPLY to Response to Motion re
11 First MOTION for Summary
Judgment filed by GIANINNA
GALLARDO. (GOWDY, BRYAN)
(Entered: 09/20/2016)
***

04/18/2017 30

***VACATED PER ECF 85 ***
ORDER ON SUMMARY JUDGMENT MOTIONS - Gallardo's Motion for Summary Judgment, ECF
No. 11 , is GRANTED. AHCA's
Motion for Summary Judgment,

9

ECF No. 13 , is DENIED. In its
current form, § 409.910, Fla. Stat.
(2016), is preempted by federal
law; namely, 42 U.S.C. § 1396a, 42
U.S.C. § 1396k, and 42 U.S.C. §
1396p. The Clerk shall enter judgment stating: Gianinna Gallardo,
an incapacitated person, by and
through her parents and co-guardians, Pilar Vassallo and Walter
Gallardo, successfully proved that
portions of § 409.910(17)(b), Fla.
Stat. (2016) are preempted by federal law. The State of Florida
Agency for Health Care Administration is therefore enjoined
from enforcing that statute in its
current form. It is declared that
the federal Medicaid Act prohibits
the State of Florida Agency for
Health Care Administration from
seeking reimbursement of past
Medicaid payments from portions
of a recipient’s recovery that represents future medical expenses.
It is also declared that the federal
Medicaid Act prohibits the State of
Florida Agency for Health Care
Administration from requiring a
Medicaid recipient to affirmatively disprove Florida Statutes §
409.190(17)(b)'s formula-based allocation with clear and convincing
evidence to successfully challenge
it where, as here, that allocation is

10

arbitrary and there is no evidence
that it is likely to yield reasonable
results in the mine run of cases.
The Clerk shall close the file.
Signed by JUDGE MARK E
WALKER on 4/18/2017. (cle) Modified to add vacate language on
11/5/2020
(rcb).
(Entered:
04/18/2017)
***
05/03/2017 40

ORDER GRANTING UNOPPOSED MOTION TO CORRECT
MISTAKE IN ORDER AND
JUDGMENT - Plaintiff's Unopposed Motion to Correct Mistake
in Order and Judgment, ECF No.
39, is GRANTED. The Clerk shall
enter an amended judgment stating: Gianinna Gallardo, an incapacitated person, by and through
her parents and co-guardians, Pilar Vassallo and Walter Gallardo,
successfully proved that portions
of §409.910(17)(b), Fla. Stat.
(2016) are preempted by federal
law. The State of Florida Agency
for Health Care Administration is
therefore enjoined from enforcing
that statute in its current form. It
is declared that the federal Medicaid Act prohibits the State of
Florida Agency for Health Care
Administration from seeking reimbursement of past Medicaid

11

payments from portions of a recipient's recovery that represents future medical expenses. It is also
declared that the federal Medicaid
Act prohibits the State of Florida
Agency for Health Care Administration from requiring a Medicaid recipient to affirmatively disprove
Florida
Statutes
§
409.910(17)(b)'s formula-based allocation with clear and convincing
evidence to successfully challenge
it where, as here, that allocation is
arbitrary and there is no evidence
that it is likely to yield reasonable
results in the mine run of cases.
Signed by JUDGE MARK E
WALKER on 5/3/2017. (cle) (Entered: 05/03/2017)
05/05/2017 41

AMENDED CLERK’S JUDGMENT - re:40 ORDER GRANTING UNOPPOSEDMOTION TO
CORRECT MISTAKE IN ORDER
AND JUDGMENT. (cle) (Entered:
05/03/2017)
***

05/11/2017 44

MOTION to Alter Judgment ((Internal deadline for referral to
judge if response not filed earlier:
5/25/2017).), MOTION to Set
Aside Judgment by JUSTIN M
SENIOR. (Attachments: # 1 Exhibit A, # 2 Exhibit B) (BARDOS,
ANDY) (Entered: 05/11/2017)

12

***
06/12/2017 51

RESPONSE to Motion re 44 MOTION to Alter Judgment MOTION
to Set Aside Judgment filed by
GIANINNA GALLARDO. (Attachments: # 1 Exhibit 1, # 2 Exhibit 2,
# 3 Exhibit 3, # 4 Exhibit 4, # 5 Exhibit 5, # 6 Exhibit 6, # 7 Exhibit
7, # 8 Exhibit 8, # 9 Exhibit 9)
(GOWDY, BRYAN) (Entered:
06/12/2017)
***

06/20/2017 54

MEMORANDUM in Support re 44
MOTION to Alter Judgment MOTION to Set Aside Judgment filed
by JUSTIN M SENIOR. (MEROS,
GEORGE) (Entered: 06/20/2017)

06/20/2017 55

RESPONSE by GIANINNA GALLARDO re 53 Telephone Conference, Set Deadlines/Hearings,.
(Attachments: # 1 Exhibit A, # 2
Exhibit B) (GOWDY, BRYAN)
(Entered: 06/20/2017)
***

07/18/2017 59

ORDER GRANTING IN PART
AND DENYING IN PART MOTION TO ALTER OR AMEND
JUDGMENT - AHCA's Motion to
Alter or Amend the Judgment and
for Relief from Judgment, ECF No.
44, is GRANTED in part and DENIED in part. AHCA's motion is
GRANTED to the extent that it

13

seeks an amendment clarifying
the injunction's scope. The balance
of AHCAs motion is DENIED. The
Clerk shall enter a second
amended judgment stating: Gianinna Gallardo, an incapacitated
person, by and through her parents and co- guardians, Pilar Vassallo and Walter Gallardo, successfully proved that portions of§
409.910(11)(f), Fla. Stat. (2016)
and § 409.910(17)(b), Fla. Stat.
(2016) are preempted by federal
law. It is declared that the federal
Medicaid Act prohibits the State of
Florida Agency for Health Care
Administration from seeking reimbursement of past Medicaid
payments from portions of a recipients recovery that represents future medical expenses. The State
of Florida Agency for Health Care
Administration is therefore enjoined from doing just that: seeking reimbursement of past Medicaid payments from portions of a
recipient's recovery that represents future medical expenses. It
is also declared that the federal
Medicaid Act prohibits the State of
Florida from requiring a Medicaid
recipient to affirmatively disprove
§ 409.910 (17)(b)'s formula-based
allocation with clear and convincing evidence to successfully

14

challenge it where, as here, that
allocation is arbitrary and there is
no evidence that it is likely to yield
reasonable results in the mine run
of cases. Signed by JUDGE MARK
E WALKER on 7/18/2017. (cle)
(Entered: 07/18/2017)
07/18/2017 60

***VACATED IN ITS ENTIRETY
per ECF 85 **** SECOND
AMENDED CLERK'S JUDGMENT - re : 59 ORDER GRANTING IN PART AND DENYING IN
PART MOTION TO ALTER OR
AMEND JUDGMENT. (cle) Modified on 9/21/2017 to reflect 2nd
amended (ckm). Modified to add
vacate language on 11/5/2020
(rcb). (Entered: 07/18/2017)
***

08/17/2017 64

NOTICE OF APPEAL as to 30 Order on Motion for Summary Judgment, 59 Order on Motion to Alter
Judgment, Order on Motion to Set
Aside Judgment, 60 Clerk's Judgment by JUSTIN M SENIOR. (Filing fee $505 Receipt Number
AFLNDC-3953401.)
(MEROS,
GEORGE) (Entered: 08/17/2017)
***

10/28/2020 84

USCA MANDATE of USCA #1713693-JJ as to 64 Notice of Appeal.
It is hereby ordered, adjudged, and
decreed that the opinion issued on

15

this date in this appeal is entered
as the judgment of this Court. 30
Day Exhibit Return Deadline After Appeal Mandate set for
11/27/2020. (rcb) Modified to add
language from order on 2/4/2021
(rcb). (Entered: 11/04/2020)
11/04/2020 85

ORDER VACATING 60 JUDGMENT. The Clerk shall annotate
the docket to reflect that this
Court's Order on the parties' crossmotions for summary judgment,
ECF No. 30, is VACATED, and the
Clerk's Second Amended Judgment, ECF No. 60 , is VACATED
in its entirety. The Clerk shall enter a new judgment stating, Plaintiff's claims against Defendant are
dismissed with prejudice." The
Clerk shall close the file. Signed by
CHIEF
JUDGEMARK
E
WALKER on 11/04/2020. (rcb)
(Entered: 11/05/2020)

11/05/2020 86

CLERK'S JUDGMENT re 85 Order Vacating Judgment. 90 Day
Exhibit Return Deadline set for
2/3/2021
(rcb)
(Entered:
11/05/2020)
***

16

IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF FLORIDA
GIANINNA GALLARDO, an
incapacitated person, by and
through her parents and coguardians, PILAR VASSALLO
and WALTER GALLARDO,
Plaintiff,
vs.

Case No.: 4:16-cv116-MW-CAS

ELIZABETH DUDEK, in
her official capacity as
Secretary of the STATE OF
FLORIDA, AGENCY FOR
HEALTH CARE ADMINISTRATION,
Defendant.

/
COMPLAINT

Plaintiff, GIANINNA GALLARDO, an incapacitated person, by and through her parents and coguardians, PILAR VASSALLO and WALTER GALLARDO, brings this action for injunctive, declaratory
and other appropriate relief (including costs and attorney’s fees) to challenge the refusal of the Defendant, STATE OF FLORIDA AGENCY FOR HEALTH
CARE ADMINISTRATION, to comply with federal
Medicaid law.
I. INTRODUCTORY STATEMENT
1. This is a civil rights action brought pursuant to
42 U.S.C. §1983 seeking injunctive, declaratory and

17

other appropriate relief (including costs and attorney’s fees) as a result of the deprivation of the Plaintiff’s rights as secured by 42 U.S.C. §1396p(a) & (b)
(known as the “federal Medicaid anti-lien and anti-recovery provisions”).
2. In particular, Defendant STATE OF FLORIDA
AGENCY FOR HEALTH CARE ADMINISTRATION
(“AHCA”) has asserted a Medicaid lien against Plaintiff’s personal injury settlement and is seeking payment of its lien from beyond that portion of Plaintiff’s
settlement representing compensation for past medical expenses by requiring in the administrative proceeding filed under section 409.910(17)(b), Florida
Statutes, that Plaintiff prove by clear and convincing
evidence that both her compensation for past medical
expenses and her compensation for future medical expenses is less than the amount required to be paid to
AHCA under the formula at section 409.910(11)(f).
3. Plaintiff seeks a judgment declaring that AHCA
may not recover beyond that portion of her settlement
representing compensation for past medical expenses
by requiring in the administrative proceeding under
section 409.910(17)(b), that Plaintiff prove by clear
and convincing evidence that both her compensation
for past medical expenses and her compensation for
future medical expenses is less than the amount required to be paid to AHCA under the formula at section 409.910(11)(f). Plaintiff also seeks a judgment declaring that section 409.910(17)(b) is unconstitutional
under the Supremacy Clause in Article VI of the
United States Constitution to the extent that it allows
AHCA to recover beyond that portion of Plaintiff’s settlement representing compensation for past medical
expenses in violation of 42 U.S.C. §1396a(a)(25)(H)
and 42 U.S.C. §1396p.

18

4. Finally, Plaintiff seeks a judgment enjoining
AHCA from enforcing section 409.910(17)(b) in a manner that permits AHCA to recover beyond that portion
of Plaintiff’s settlement representing compensation
for past medical expenses in violation of 42 U.S.C.
§1396, et seq., Ark. Dept. of Health & Human Services
v. Ahlborn, 547 U.S. 268 (2006); and Wos v. E.M.A.
133 S.Ct. 1391 (2013).
II. JURISDICTION AND VENUE
5. Plaintiff’s case arises under the laws and Constitution of the United States, specifically, 42 U.S.C.
§1396a, 42 U.S.C. §1396p, and the Supremacy Clause
in Article VI of the Constitution.
6. This court has jurisdiction over Plaintiff’s claims
under 28 U.S.C. §1331, 28 U.S.C. §1343(3), and 28
U.S.C. §1343(4).
7. Plaintiff’s lawsuit is authorized by 42 U.S.C.
§1983 and 28 U.S.C. §2201.
8. This court has supplemental jurisdiction pursuant to 28 U.S.C. §1367 to resolve all state law claims
related to the federal claims asserted herein.
9. Under 28 U.S.C. §1391, venue is proper in this
court.
III. PARTIES
10. Plaintiff, GIANINNA GALLARDO, is an incapacitated person, residing with her parents and coguardians, PILAR VASSALLO and WALTER GALLARDO, in Lee County, Florida.
11. At all times relevant to this civil action, Plaintiff was a Medicaid recipient and received medical assistance paid through the Medicaid program administered by AHCA.

19

12. Defendant ELIZABETH DUDEK is sued in her
official capacity as the Secretary of the STATE OF
FLORIDA AGENCY FOR HEALTH CARE ADMINISTRATION, with an office address of 2727 Mahan
Drive, Tallahassee, Florida 32309.
13. AHCA is an agency of the State of Florida responsible for the administration of Florida’s Medicaid
program in accordance with 42 U.S.C. §1396, et seq.
14. AHCA is responsible for enforcing liens and
other rights of recovery which may arise by reason of
a medical payment made to or on behalf of a Medicaid
recipient in accordance with 42 U.S.C. §1396a and 42
U.S.C. §1396p.
15. At all times relevant to this civil action, Florida’s Medicaid program received funding from the
United States government and AHCA was required to
administer the program in accordance with federal
law.
IV. LEGAL BACKGROUND – MEDICAID
16. Congress established the Medicaid Program in
1965 through Title IX to the Social Security Act, 42
U.S.C. §1396, “[f]or the purpose of providing federal
financial assistance to States that choose to reimburse
certain costs of medical treatment for needy persons.”
Harris v. McRae, 448 U.S. 297, 301 (1980). Under this
system of “cooperative federalism” if a State agrees to
establish a Medicaid plan, the federal government
agrees to pay a specified percentage of the total
amount the State plans spends on medical assistance.
Id. at 308.
17. State participation in the federal Medicaid program is voluntary however, a State that has elected to
participate, like Florida, must comply with the federal

20

Medicaid statutes and regulations. See Wilder v. Virginia Hosp. Asso., 110 S.Ct. 2510 (1990) and Public
Health Trust of Dade County v. Dade County Sch. Bd.,
693 So.2d 562, 564 (Fla. 3rd DCA 1997).
18. The federal Medicaid program requires every
participating State to implement a “third-party liability” provision which requires the State to ascertain the
legal liability of a third-party to pay for medical care
provided through the Medicaid program. Where such
a legal liability is found to exist, the State is to seek
reimbursement from the third-party to the extent of
the third-party’s legal liability to pay for medical care
provided through the Medicaid program. See 42
U.S.C. §1396a(a)(25)(A, B, & C). To facilitate this direction, a State must have “in effect laws under which,
to the extent that payment has been made under the
State plan for medical assistance for health care items
or services furnished to an individual, the State is considered to have acquired the rights of such individual
to payment by any other party for such health care
items or services.” 42 U.S.C. §1396a(a)(25)(H).
19. The State, after providing Medicaid benefits,
may seek reimbursement of “payment(s) that have
been made under the State plan for medical assistance
for health care items or services furnished to an individual” by “acquiring the rights of such individual to
payment by any other party for such health care items
or services.” However, there are limitations on the
State’s recovery that protect the Medicaid recipient’s
property. Specifically, the federal anti-lien statute at
42 U.S.C. §1396p(a)(1) states “[n]o lien may be imposed against the property of any individual prior to
his death on account of medical assistance paid,” and
the federal anti-recovery statute at §1396p(b)(1)
states “[n]o adjustment or recovery of any medical

21

assistance correctly paid on behalf of an individual under the State plan may be made.”
20. In Ark. Dept. of Health & Human Services v.
Ahlborn, 547 U.S. 268 (2006), the Supreme Court reviewed the tension between a Medicaid recipient’s assignment to the State of his right to recover from liable
third-parties “payment(s) that have been made under
the State plan” in 42 U.S.C. §1396a(a)(25)(H) and the
protections of a Medicaid recipient’s property interest
in their tort settlement in the federal anti-lien and
anti-recovery statutes. The Ahlborn Court outlined
that the State’s ability to receive reimbursement under the assignment of a Medicaid recipient’s right to
recover medical assistance paid by Medicaid in 42
U.S.C. §1396a(a)(25)(H) is a limited exception to the
federal anti-lien statute in 42 U.S.C. §1396p(a), which
affirmatively prohibits States from seeking reimbursement from any portion of a Medicaid recipient’s
settlement. Accordingly, under federal law as interpreted in Ahlborn, a State is limited to recover from
only that portion of a Medicaid recipient’s settlement
representing compensation for past medical expenses.
See E.M.A. v. Cansler, 674 F.3d 290, 312 (U.S. 4th Cir.
2012)(“as the unanimous Ahlborn Court’s decision
makes clear, federal Medicaid law limits a State’s recovery to settlement proceeds that are shown to be
properly allocable to past medical expenses.”); affirmed
Wos v. E.M.A., 133 S.Ct. 1391 (2013).
21. Further, under the U.S. Supreme Court’s decision in Wos v. E.M.A., 133 S.Ct. 1391 (2013) federal
Medicaid law preempts State attempts to use a “irrebuttable one-size-fits-all” statutory formula to dictate
its payment and a Medicaid recipient must be afforded
the opportunity to challenge the payment of a Medicaid lien through an adversarial proceeding. As the

22

Wos Court stated in relation to the protections afforded Medicaid recipients by federal Medicaid law,
“Pre-emption is not a matter of semantics. A State
may not evade the pre-emptive force of federal law by
resorting to creative statutory interpretation or description at odds with the statute’s intended operation
and effect.” 133 S.Ct. at 1397-98.
22. The Florida Legislature has enacted section
409.910, Florida Statutes, which authorizes AHCA to
be reimbursed from a personal injury settlement or
verdict money paid by Medicaid for the Medicaid recipient’s “medical care prior to a tort recovery.” Smith
v. Agency for Health Care Admin., 24 So. 3d 590, 590
(Fla 5th DCA 2009). The statute creates an automatic
lien on any such judgment or settlement for the full
amount of medical assistance provided by Medicaid. §
409.910(6)(c), Fla. Stat.
23. The amount AHCA may recover for Medicaid
expenditures from a judgment, award, or settlement
from a third party is determined by the formula in section 409.910(11)(f), which sets that amount at one-half
of the total recovery, after deducting 25 percent for attorney’s fees and deducting taxable costs, up to, but
not to exceed, the total amount actually paid by Medicaid on the recipient’s behalf. Agency for Health Care
Admin. v. Riley, 119 So. 3d 514, 515, n.3 (Fla. 2d DCA
2013).
24. The Florida appellate courts have recognized
that under the U.S. Supreme Court decisions of Ahlborn and Wos, the formula at “section 409.910(11)(f)
is preempted by the federal Medicaid statute’s antilien provision to the extent it creates an irrebuttable
presumption and permits recovery beyond that portion of a Medicaid recipient’s third-party recovery

23

representing compensation for past medical expenses.” Davis v. Roberts, 130 So. 3d 264, 270 (Fla. 5th
DCA 2013); and Harrell v. Agency for Health Care Admin, 143 So.3d 478, 480 (Fla. 1st DCA 2014). As the
First District Court of Appeals in Harrell stated:
The decision in Wos has undermined the reasoning of the decisions that AHCA and the trial court
have previously relied upon, so much so that
three of the five district courts in Florida have,
when presented with the issue of whether section
409.910(11)(f) has been preempted uniformly
changed course by issuing opinions consistent
with Wos. … As the Fifth District recently noted,
“Ahlborn and Wos make clear that section
409.910(11)(f) is preempted by the federal Medicaid statute’s anti-lien provision to the extent it
creates an irrebuttable presumption and permits
recovery beyond that portion of the Medicaid recipient’s third-party recovery representing compensation for past medical expenses.
…
When such evidence is introduced, the trial court
must consider it in making a determination on
whether AHCA’s lien amount should be adjusted
to be consistent with federal law.
Harrell, 143 So. 3d at 480 (citations omitted).
25. Shortly after the Wos decision was issued, the
2013
Florida
Legislature
amended
section
409.910(17), to strip the trial court of jurisdiction to
handle the challenge of a Medicaid lien and placed the
challenge of a Medicaid lien at the Division of Administrative Hearings (“DOAH”) in Tallahassee. See Section 409.910(17(a–e), Florida Statutes (2013). In doing
so, the Legislature placed the burden of proof in

24

challenging a Medicaid lien solely on the Medicaid recipient and assigned the heightened standard of proof
of “clear and convincing evidence.”
The operative sentence of section 409.910(17)(b), outlining what must be proven by the Medicaid recipient
at DOAH to successfully challenge the payment of a
Medicaid lien states:
In order to successfully challenge the amount
payable to the agency, the recipient must prove,
by clear and convincing evidence, that a lesser
portion of the total recovery should be allocated
as reimbursement for past and future medical expenses than the amount calculated by the agency
pursuant to the formula set forth in paragraph
(11)(f) or that Medicaid provided a lesser amount
of medical assistance than that asserted by the
agency.
26. AHCA has not promulgated any administrative
rules or issued policy statements relative to its interpretation of section 409.910 or the administrative procedure for challenging a Medicaid lien contained in
section 409.910(17)(a–e).
27. In administrative proceedings under section
409.910(17)(b), AHCA has taken the position that it is
entitled to recover from both the portion of a Medicaid
recipient’s settlement compensating for past medical
expenses and the portion of the settlement compensating for future medical expenses. Further, AHCA has
taken the position that to successfully challenge the
amount payable to AHCA, the Medicaid recipient
must prove by clear and convincing evidence that the
amount allocable to both past and future medical expenses is less than the formula amount in section
409.910(11)(f).

25

28. Ahlborn and Wos determined that the federal
Medicaid statutes preempt and prohibit State attempts to recover beyond that portion of a Medicaid
recipient’s settlement representing compensation for
past medical expenses. Davis and Harrell recognized
that the federal Medicaid statutes preempt section
409.910(11)(f) to the extent it “permits recovery beyond that portion of a Medicaid recipient’s third-party
recovery representing compensation for past medical
expenses.” Those statutes have not been amended or
altered and are in full force and effect.1
V. FACTUAL BACKGROUND
29. On November 19, 2008, GIANINNA was struck
by a truck after being dropped off by her school bus.
As a result of this accident, GIANINNA suffered catastrophic physical injury and brain damage leaving her
in a persistent vegetative state unable to ambulate,
communicate, eat, toilet or care for herself in any
manner.
30. As a result of GIANINNA’s catastrophic injuries, GIANINNA suffered both economic and non-economic damages. These damages would include, but
not be limited to, pain and suffering, disability, disfigurement, mental anguish, loss of capacity for the enjoyment of life, loss of ability to earn money, and past
and future medical expenses. Altogether, a
––––––––––––––––––––––––
1 “It is also true that during all times relevant to the instant
proceeding there have been no changes to the anti-lien provision
in federal Medicaid law.” Gibbons v. AHCA, Case No. 134720MTR, 2014 WL 1875794 (DOAH May 7, 2014); see also,
Leigh Ann Holland v. AHCA, Case No. 14-2520MTR, 2014 WL
4953240 (DOAH Sept. 29, 2014); Mierzwinski v. AHCA, Case No.
14-3806MTR, 2015 WL 1095841 (DOAH Mar. 6, 2015); and Bryant v. AHCA, Case No.: 15-4651MTR, 2016 WL 681061 (DOAH
Feb. 12, 2016).

26

conservative valuation of all GIANINNA’s damages
and the value a jury would award in damages (absent
any limiting factors such as disputed facts, liability,
causation, insolvency of the parties, insurance policy
limits, etc.) would be in excess of $20,000,000.
31. GIANINNA’s past medical expenses related to
her injuries were paid by WellCare of Florida and
Medicaid. WellCare of Florida provided $21,499.30 in
benefits and Medicaid provided $862,688.77 in benefits. The combined amount of benefits provided to
GIANINNA was $884,188.07 and this $884,188.07
represented GIANINNA’s entire claim for past medical expenses.
32. GIANINNA or others on her behalf, did not
make payments in the past or in advance for GIANINNA’s future medical care. Accordingly, no claim
for damages can be made for reimbursement, repayment, restitution, indemnification, or to be made
whole for payments made in the past or in advance for
future medical care.
33. GIANINNA’s parents, PILAR VASSALLO and
WALTER GALLARDO, were appointed her co-guardians and they brought a personal injury action to recover all of GIANINNA’s damages against those parties allegedly responsible for her injuries (“Tortfeasors”).
34. While GIANINNA’s damages have an exceedingly high monetary value in excess of $20,000,000,
there were significant issues of disputed facts, liability, assumption of risk, sovereign immunity, and insurance policy limits that called into question the liability of the Defendants and their ability to pay if a
judgement was entered against them.

27

35. Based on these limiting factors, GIANINNA’s
personal injury action was compromised and settled
in two settlements totaling $800,000.
36. Although these settlements were in GIANINNA’s best interest and appropriate given the significant limiting factors, the settlements do not fully
compensate her for all her damages and she is only
receiving a fraction of the total monetary value of all
her damages. Using the most conservative low-end
valuation of all GIANINNA’s damages of $20,000,000,
GIANINNA in the settlements is receiving only 4% of
the value of her damages and GIANINNA is receiving
only 4% of each and every element of her damages including only 4% of her $884,188.07 claim for past medical expenses, or $35,367.52.
37. Understanding that the settlements do not
fully compensate GIANINNA for all her damages and
in the settlements GIANINNA is only receiving a fraction of the total monetary value of all her damages,
including only a fraction of her $884,188.07 claim for
past medical expenses, an allocation to GIANINNA’s
claim for past medical expenses was made as part of
the settlement(s). This allocation was based on the
calculation of the ratio the settlements bore to the total monetary value of all GIANINNA’s damages. Using the conservative valuation of all GIANINNA’s
damages of $20,000,000, it was calculated that GIANINNA was receiving 4% of the total monetary value
of all her damages in the settlements, and accordingly
she was receiving in the settlements 4% of her
$884,188.07 claim for past medical expenses, or
$35,367.52.
38. In making this allocation, the parties agreed
that:

28

a) The settlements do not fully compensate
GIANINNA for all the damages she has suffered
and the settlements only compensates GIANINNA
for a fraction of the total monetary value of all her
damages;
b) GIANINNA’s damages have a value in excess
of $20,000,000;
c) GIANINNA’s claim for past medical expenses
was $884,188.07;
d) Allocation of $35,367.52 of the settlements to
past medical expenses and the remainder of the
settlements toward the satisfaction of claims other
than past medical expenses is reasonable and proportionate based on the same ratio the settlements
bear to the total monetary value of all GIANINNA’s damages;
e) GIANINNA or others on her behalf have not
made payments in the past or in advance for GIANINNA’s future medical care;
f) GIANINNA has not made a claim for reimbursement, repayment, restitution, indemnification, or to be made whole for payments made in the
past or in advance for future medical care; and
g) No portion of the settlements represents reimbursement for future medical expenses.
39. The parties memorialized the allocation of
$35,367.52 of the settlements to past medical expenses as well as their agreement concerning the lack
of any claim for, or recovery of, reimbursement of future medical expenses in the two (2) Settlement
Agreement and Release(s). The respective Releases
stated:

29

Further, the Parties acknowledge that although
Gianinna Gallardo’s settlement does not fully
compensate Gianinna Gallardo for all of the damages she has allegedly suffered, this settlement
shall operate as a full and complete Release as to
[Releasors] without regard to Gianinna Gallardo’s settlement only compensating her for a
fraction of the total monetary value of her alleged
damages. Plaintiffs believe, and [Releasors]
agrees that it is not unreasonable for Plaintiffs to
believe, that Gianinna Gallardo’s alleged damages have a value in excess of $20,000,000, of
which $884,188.07 represents Gianinna Gallardo’s claim for past medical expenses. Given the
facts, circumstances, and nature of Gianinna
Gallardo’s injuries and Gianinna Gallardo’s settlement, the parties have agreed to allocate
$22,104.70 of Gianinna Gallardo’s settlement to
Gianinna Gallardo’s claim for past medical expenses and allocated the remainder of her settlement towards the satisfaction of claims other
than past medical expenses. This allocation is a
reasonable and proportionate allocation based on
the same ratio Gianinna Gallardo’s settlement
bears to the above-referenced 20,000,000 total
monetary value asserted by Plaintiffs of all Gianinna Gallardo’s alleged damages. Further, the
parties acknowledge that Gianinna Gallardo may
need future medical care related to her injuries,
and some portion of this settlement may represent compensation for future medical expenses
Gianinna Gallardo will incur in the future. However, the parties acknowledge that Gianinna Gallardo, or others on her behalf, have not made payments in the past or in advance for Gianinna

30

Gallardo’s future medical care and Gianinna Gallardo has not made a claim for reimbursement,
repayment, restitution, indemnification, or to be
made whole for payments made in the past or in
advance for future medical care. Accordingly, no
portion of this settlement represents reimbursement for future medical expenses.
Although this settlement does not fully compensate First Party for all of the damages being alleged in this lawsuit, this settlement and Full
and Final Release shall operate as a full, final
and complete Release as to Second Party, without
regard to the fact that Gianinna Gallardo’s settlement only compensates her for a fraction of the
total alleged damages. The Parties agree that
Gianinna Gallardo’s alleged damages exceed
$20,000,000 of which $884,188.07 represents
Gianinna Gallardo’s claim for past medical expenses. Given the facts, circumstances, and nature of Gianinna Gallardo’s injuries, First Party
has allocated $13,262.82 of Gianinna Gallardo’s
settlement to her claim for past medical expenses
and allocated the remainder of her settlement towards the satisfaction of claims other than past
medical expenses. First Party believes this to be
a reasonable and proportionate allocation based
upon the same ratio Gianinna Gallardo’s settlement bears to the total value of Gianinna Gallardo’s damages. Second Party does not object to
Plaintiff’s allocation; however, should any issue
arise with respect to Plaintiff’s allocations, such
allocations shall not affect the validity of this settlement between the Parties, as this settlement
and Full and Final Release shall operate as a full,

31

final and complete Release as to the Second
Party.
Further, the parties acknowledge that Gianinna
Gallardo may need future medical care related to
her injuries, and some portion of this settlement
may represent compensation for future medical
expenses which Gianinna Gallardo will incur in
the future. However, the parties acknowledge
that Gianinna Gallardo, or others on her behalf,
have not made payments in the past or in advance for Gianinna Gallardo’s future medical
care and Gianinna Gallardo has not made a claim
for reimbursement, repayment, restitution, indemnification, or to be made whole for payments
made in the past or in advance for future medical
care. Accordingly, no portion of this settlement
represents a reimbursement for advance payment(s) of future medical expenses.
39. Because Gianinna Gallardo was incompetent,
Court approval of her settlement was required. Accordingly, by Orders of July 10, 2015 and September
22, 2015, the Honorable Circuit Court Judge John E.
Duryea, Jr. approved the settlement of GIANINNA’s
lawsuit.
40. As stated in paragraph 31 above, GIANINNA’s
claim for past medical expenses was in the amount of
$884,188.07, of which $862,688.77 represented the
amount paid by AHCA through the Medicaid program.
41. As a condition of GIANINNA’s eligibility for
Medicaid, GIANINNA assigned to AHCA her right to
recover from liable third-parties medical expenses
paid by Medicaid. See 42 U.S.C. §1396a(a)(25)(H) and
§409.910(6)(b), Fla. Stat.

32

42. During the pendency of GIANINNA’s personal
injury action, AHCA was notified of the action, and
AHCA through its collections contractor, Xerox Recovery Services, asserted a $862,688.77 Medicaid lien
against GIANINNA’s cause of action and future settlement of that action.
43. The $862,688.77 spent by AHCA through the
Medicaid program on behalf of GIANINNA represents
expenditures paid for GIANINNA’s past medical expenses. No portion of the $862,688.77 paid by AHCA
through the Medicaid program on behalf of GIANINNA represent expenditures for future medical expenses, and AHCA did not make payments in the past
or in advance for GIANINNA’s future medical care.
44. By letter of October 8, 2015, GIANINNA’s attorney notified AHCA of the settlement and provided
AHCA with a copy of the executed Release(s) and
signed Orders approving GIANINNA’s settlements.
This letter explained that GIANINNA’s damages had
a value in excess of $20,000,000 and the settlement
represented only a 4% recovery of GIANINNA’s
$884,188.07 claim for past medical expenses, or
$35,367.52. This letter requested AHCA to advise as
to the amount AHCA would accept in satisfaction of
the $862,688.77 Medicaid lien.
45. AHCA did not respond to GIANINNA’s attorney’s letter of October 8, 2015.
46. AHCA did not file an action to set-aside, void,
or otherwise dispute GIANINNA’s settlement with
the Tortfeasors.
47. The formula at section 409.910(11)(f) as applied
to GIANINNA’s entire $800,000 settlement requires
payment to AHCA of approximately $300,000.

33

48. Pursuant to section 409.910(17)(a) GIANINNA
deposited the (11)(f) formula amount into an interest
bearing account and filed a Petition with DOAH under
section 409.910(17)(b) to determine the amount of her
settlement payable to AHCA in satisfaction of its Medicaid lien. See GIANINNA GALLARDO v. AHCA,
DOAH Case No.: 15-6960MTR (“Gallardo v. AHCA”).
49. In the administrative proceeding Gallardo v.
AHCA, AHCA is seeking recovery beyond that portion
of GIANINNA’s settlement representing compensation for past medical expenses, and AHCA is seeking
recovery from that portion of GIANINNA’s settlement
representing compensation for future medical expenses.
50. In the administrative proceeding Gallardo v.
AHCA, AHCA has taken the position that it is entitled
to recover from both the portion of GIANINNA’s settlement compensating her for past medical expenses
and the portion of her settlement compensating her
for future medical expenses.
51. In the administrative proceeding Gallardo v.
AHCA, AHCA’s position is that in order for GIANINNA to successfully challenge the amount payable
to AHCA, she must prove by clear and convincing evidence that both her compensation for past medical expenses and her compensation for future medical expenses is less than the amount required to be paid to
AHCA under the formula at section 409.910(11)(f).
52. The Administrative Law Judge DOAH assigned to the case of Gallardo v. AHCA has previously
agreed with AHCA’s position relative to section
409.910(17)(b), and ruled that under section
409.910(17)(b) AHCA may recover its past payments

34

from the portion of a settlement compensating a Medicaid recipient for future medical expenses.
53. AHCA’s position that it is entitled to recover
from both the portion of GIANINNA’s settlement compensating her for past medical expenses and the portion of her settlement compensating her for future
medical expenses is a violation of federal Medicaid
law, Ahlborn and Wos, and the Florida decisions that
have held that this federal law preempts section
409.910(11)(f) “to the extent it permits recovery beyond that portion of the Medicaid recipient’s thirdparty recovery representing compensation for past
medical expenses.”
54. AHCA’s position that under section
409.910(17)(b) GIANINNA must prove that both her
compensation for past medical expenses and her compensation for future medical expenses is less than the
formula amount in order to successfully challenge the
Medicaid lien is contrary to the language of section
409.910(17)(b), which states the Medicaid recipient
must prove the amount allocated as “reimbursement
for past and future medical expenses” is less than the
formula amount. But most importantly, AHCA’s position permits AHCA to recover beyond that portion of
GIANINNA’s “third-party recovery representing compensation for past medical expenses” in violation of
federal law, Supreme Court case law, and Florida decisions holding that this federal law preempts section
409.910(11)(f) “to the extent it permits recovery beyond that portion of the Medicaid recipient’s thirdparty recovery representing compensation for past
medical expenses.”
55. To the extent that section 409.910(17)(b) permits AHCA to recover beyond that portion of

35

GIANINNA’s settlement representing compensation
for past medical expenses it is a violation of federal
Medicaid law and is preempted.
VI. COUNT I
Declaratory, Injunctive and all other appropriate Relief
56. Paragraphs 1 through 55, are restated and incorporated herein as true and accurate.
57. Plaintiff request declaratory relief that AHCA
may not recover beyond that portion of her settlement
compensating for past medical expenses in violation of
federal Medicaid law.
58. Plaintiff request declaratory relief that section
409.910(17)(b) violates federal Medicaid law insofar as
it permits AHCA to recover beyond that portion of her
settlement representing compensation for past medical expenses by requiring her to prove by clear and
convincing evidence the amount of her settlement allocable as both compensation for past medical expenses and compensation for future medical expenses
is less than the amount required to be paid to AHCA
under the formula at section 409.910(11)(f).
59. Plaintiff request all appropriate injunctions
against AHCA to prevent AHCA from recovering beyond that portion of her settlement compensating her
for past medical expenses.
60. Plaintiff request all other appropriate relief including attorney’s fees and costs authorized by 42
U.S.C. §1988.
WHEREFORE, Plaintiff, GIANINNA GALLARDO, an incapacitated person, by and through her
parents and co-guardians, PILAR VASSALLO and

36

WALTER GALLARDO, request that this Honorable
Court:
A. Issue an appropriate judgement declaring that
under federal Medicaid law AHCA is prohibited from
recovering beyond that portion of Plaintiff’s settlement representing compensation for past medical expenses;
B. Issue an appropriate judgement declaring that
section 409.910(17)(b) violates federal law in so far as
it permits AHCA to recover beyond that portion of
Plaintiff’s settlement representing compensation for
past medical expenses by requiring Plaintiff to prove
by clear and convincing evidence the amount of her
settlement allocable to both compensation for past
medical expenses and compensation for future medical expenses is less than the amount required to be
paid to AHCA under the formula at section
409.910(11)(f);
C. Issue an appropriate injunction prohibiting Defendant, ELIZABETH DUDEK, in her official capacity
as Secretary of the STATE OF FLORIDA, AGENCY
FOR HEALTH CARE ADMINISTRATION from seeking recovery beyond that portion of Plaintiff’s settlement representing compensation for past medical expenses;
D. Grant Plaintiff’s attorney fees, costs and expenses authorized by 42 U.S.C. 1988; and
E. Grant such further relief as this Court deems
just and proper.
***

37

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
GIANINNA GALLARDO, an
incapacitated person, by and
through her parents and coguardians, PILAR VASSALLO
and WALTER GALLARDO,
Plaintiff,
vs.

Case No.: 4:16-cv116-MW-CAS

ELIZABETH DUDEK, in
her official capacity as
Secretary of the STATE OF
FLORIDA, AGENCY FOR
HEALTH CARE ADMINISTRATION,
Defendant.

/
ANSWER

Defendant ELIZABETH DUDEK, in her official capacity as Secretary of the STATE OF FLORIDA,
AGENCY FOR HEALTH CARE ADMINISTRATION
(“Agency,” or “AHCA”), by and through undersigned
counsel, hereby files this Answer, stating:
1. Paragraphs 1, 2, 5-15, 26, 27, 29, 31, 33, 40, 42,
43-47, 49, and 52 are admitted.
2. Paragraphs 30, 32, 34, 36-39, and 48 are denied.
3. Paragraphs 3, 4, 16-25, 28, 53-55, and 57-60 are
argument or legal conclusion, and are denied.

38

4. Paragraph 35 is admitted to the extent that GIANINNA’s personal injury action was settled in two settlements totaling $800,000. Otherwise, denied.
5. Paragraph 41 is admitted to the extent that as a
condition of GIANINNA’s eligibility for Medicaid,
GIANINNA assigned to AHCA her right to recover
from liable third-parties. Denied to the extent that the
right assigned is limited to medical expenses paid by
Medicaid.
6. Paragraph 50 is denied. AHCA has not yet taken
such a position; AHCA has not responded to the petition, nor made argument in a hearing or proposed final order.
7. Paragraph 51 is admitted to the extent that the
described means of successfully challenging the
amount payable to AHCA is one means available to
the Plaintiff. Denied to the extent that AHCA’s position is that the described means is the exclusive
means.
8. Paragraph 56 is admitted to the extent the referenced paragraphs have been admitted, and is denied
to the extent the referenced paragraphs have been denied.
9. Defendant admits that Plaintiff seeks the relief
granted in sub-paragraphs A-E of the “wherefore” paragraph, but denies that Plaintiff is entitled to such relief, or that it is appropriate.
WHEREFORE, Defendant ELIZABETH DUDEK,
in her official capacity as Secretary of the STATE OF
FLORIDA, AGENCY FOR HEALTH CARE ADMINISTRATION, requests that this Honorable Court:
A. Deny Plaintiff’s requests for relief; and

39

B. Grant such further relief as this Court deems
just and proper.
***

40

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
GIANINNA GALLARDO, an
incapacitated person, by and
through her parents and coguardians, PILAR VASSALLO
and WALTER GALLARDO,
Plaintiff,
vs.

Case No.: 4:16-cv116-MW-CAS

ELIZABETH DUDEK, in
her official capacity as
Secretary of the STATE OF
FLORIDA, AGENCY FOR
HEALTH CARE ADMINISTRATION,
Defendant.

/

MEMORANDUM SUPPORTING PLAINTIFF’S
MOTION FOR SUMMARY JUDGMENT
***
II. Statement of Undisputed Facts1
1. In November 2009, a truck struck Plaintiff after
her school bus dropped her off. (Comp. ¶ 29.) She suffered catastrophic physical injuries and brain damage.
(Id.) She remains in a persistent vegetative state and

––––––––––––––––––––––––

References to “Comp. ¶ __” are to paragraphs of the Complaint, Doc. 1, that AHCA admitted as true in its Answer, Doc. 5.
1

41

is unable to ambulate, communicate, eat, toilet, or
care for herself. (Id.)
2. Medicaid and Wellcare paid $862,687.77 and
$21,499.30, respectively, for Plaintiff’s past medical
expenses. (Comp. ¶ 31.) The combined amount
($884,188.07) represented Plaintiff’s entire claim for
past medical expenses in her suit against the tortfeasors. (Id.)
3. Plaintiff’s parents brought an action in state
court to recover her damages against the tortfeasors
allegedly responsible for her injuries. (Comp. ¶ 33.)
This action sought recovery of Plaintiff’s past medical
expenses, as well as her damages for bodily injury,
pain and suffering, disability, disfigurement, mental
anguish, loss of capacity for the enjoyment of life, lost
ability to earn money in the future, and future medical
expenses. (Id.) Her parents sought damages for loss of
consortium. (Id.; Ex. 1 (D.E. 10-1).)
4. Plaintiff’s personal-injury action was resolved in
two settlements totaling $800,000. (Comp. ¶35.) Court
approval was required due to her incapacity; the court
approved the settlements. (Id.; Ex. 2 (D.E. 10-2).)
5. AHCA was notified of Plaintiff’s personal-injury
action and asserted a $862,688.77 Medicaid lien
against her cause of action and future settlement.
(Comp. ¶ 42.)
6. AHCA’s Medicaid lien represents expenditures
paid for Plaintiff’s past medical expenses. (Comp. ¶
43.) AHCA has not made payments in the past or in
advance for Plaintiff’s future medical care. (Id.) No
portion of the lien represents expenditures for Plaintiff’s future medical expenses. (Id.)

42

7. By letter, Plaintiff’s attorney notified AHCA of
the settlement. (Comp. ¶ 44.) The letter explained that
Plaintiff’s damages had a value exceeding $20,000,000
and that the settlement represented only a 4% recovery of her $884,188.07 claim for past medical expenses, or $35,367.52. (Id.) The letter asked AHCA to
advise as to the amount it would accept in satisfaction
of its $862,688.77 Medicaid lien. (Id.)
8. AHCA did not respond to the letter or file an action to set aside, void, or otherwise dispute Plaintiff’s
settlement. (Comp. ¶¶ 45-46.)
9. The formula at section 409.910(11)(f), Florida
Statutes (2016) requires payment to AHCA of approximately $300,000. (Comp. ¶ 47.)
10. Because only $35,367.52 of the settlement represented compensation for past medical expenses,
Plaintiff disagreed that payment of approximately
$300,000 to AHCA was appropriate or lawful. However, under section 409.910(17)(b), the only method of
challenging the amount payable to AHCA in satisfaction of a Medicaid lien is to deposit the full amount
into an interest-bearing account and initiate an administrative proceeding at the Division of Administrative Hearings in Tallahassee (DOAH). Accordingly,
Plaintiff deposited $300,000 in an interest-bearing account and filed a petition with DOAH: Gianinna Gallardo v. AHCA, DOAH Case No. 15-6960MTR (“Gallardo v. AHCA”).
11. In administrative proceedings under section
409.910(17)(b), AHCA has taken the position that : (i)
it is entitled to recover its past Medicaid payments
from the portions of a Medicaid recipient’s settlement
representing compensation for both past and future
medical expenses; and (ii) to successfully challenge

43

the amount payable to it, the Medicaid recipient must
prove by clear and convincing evidence that the
amount of the settlement allocable to both past and
future medical expenses is less than the formula
amount in section 409.910(11)(f). (Comp. ¶ 27.)
12. In the administrative proceeding, AHCA is
seeking recovery of its past Medicaid payments from
beyond that portion of Plaintiff’s settlement representing compensation for past medical expenses.
(Comp. ¶49.)
13. On June 14, 2016, the Administrative Law
Judge granted the parties’ motion to abate proceedings and placed the case in abeyance pending resolution of the legal question presented in this case. (Ex. 3
(D.E. 10-3).)
***

44

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
GIANINNA GALLARDO, an
incapacitated person, by and
through her parents and coguardians, PILAR VASSALLO
and WALTER GALLARDO,
Plaintiff,
vs.

Case No.: 4:16-cv116-MW-CAS

ELIZABETH DUDEK, in
her official capacity as
Secretary of the STATE OF
FLORIDA, AGENCY FOR
HEALTH CARE ADMINISTRATION,
Defendant.

/

RESPONSE TO PLAINTIFF’S MOTION FOR
SUMMARY JUDGMENT
Defendant ELIZABETH DUDEK, in her official capacity as Secretary of the STATE OF FLORIDA,
AGENCY FOR HEALTH CARE ADMINISTRATION
(“Agency”), files this Response to Plaintiff’s Motion for
Summary Judgment, stating:
1. As explained by the Plaintiff, the material facts
are undisputed. The parties’ dispute arises from the
legal analysis, instead.
***

